A

2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1261
TRENT MICHAEL TAYLOR,
Petitioner,

v.

ROBERT RIOJAS, Sergeant of Corrections Officer, Individually

and in Their Official Capacity; RICARDO CORTEZ, Sergeant of
Corrections Officer, Individually and in Their Official Capac-

ity; STEPHEN HUNTER, Correctional Officer, Individually and
in Their Official Capacity; LARRY DAVIDSON, Correctional

Officer, Individually and in Their Official Capacity; SHANE
SWANEY, Sergeant of Corrections Officer, Individually and in
Their Official Capacity; JOE MARTINEZ,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of May, 2020, send out
from Omaha, NE 2 package(s) containing 1 copies of the BRIEF OF CROSS-IDEOLOGICAL GROUPS DEDICATED TO

ENSURING OFFICIAL ACCOUNTABILITY, RESTORING THE PUBLIC’S TRUST IN LAW ENFORCEMENT, AND

PROMOTING THE RULE OF LAW AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All
parties required to be served have been served either by Priority Mail or by third-party commercial carrier for delivery within

3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
CLARK M. NEILY II
JAY R. SCHWEIKERT
Counsel of Record
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, DC 20001
(202) 216-1461
jschweikert@cato.org

Subscribed and sworn to before me this 14th day of May, 2020.

CATHERINE E. STETSON
KYLE M. DRUDING
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004

(202) 637-5491
cate.stetson@hoganlovells.com

Counsel for Amici Curiae

Tam duly authorized under the laws of the State of Nebraska to administer oaths.

  

GENERAL HOTARY-State of Sebraska
RENEE J. GOSS

My Comm. Exp, September 8, 2023

 

Notary Public

 

Loos Ondiawh, Cb ly

 

Affiant
19-1261

TRENT MICHAEL TAYLOR,
Petitioner,
Vv.

ROBERT RIOJAS, ET AL.,
Respondents.

Kelsi Brown Corkran

Orrick, Herrington & Sutcliffe LLP
1152 15th Street NW

Washington, DC 20005
kcorkran@orrick.com
202-339-8497

Counsel for Petitioner

Kyle Douglas Hawkins

Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
512-936-1700

Counsel for Respondents
